      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201



March 22, 2010

TO:            Carmen Nazario
               Assistant Secretary for Children and Families
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Administration for Children and Families: Office of Community Services—
               Internal Control Review of the Process for Awarding American Recovery and
               Reinvestment Act Funds (A-02-09-02014)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), funds at the Administration for Children and Families, Office of Community Services. This
review was part of the Office of Inspector General’s assessment of whether the Department of
Health & Human Services is using Recovery Act funds in accordance with legal and
administrative requirements and is meeting the accountability objectives defined by the Office of
Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The Recovery
Act includes measures to modernize our nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

Our objective was to assess the internal controls the Administration for Children and Families
(ACF), Office of Community Services has in place for awarding grants funded under the
Recovery Act and to determine whether the controls have been suitably designed.

The internal controls for awarding Recovery Act funds to grantees, as described by management,
are suitably designed to provide reasonable assurance that the specified internal control
objectives would be achieved if the described internal controls were complied with satisfactorily
Page 2 – Carmen Nazario


and applied as designed. However, we did not perform procedures to determine the operating
effectiveness of these internal controls. Accordingly, we express no opinion on the operating
effectiveness of any aspects of the ACF Office of Community Services’ internal controls for
awarding Recovery Act funds, individually or in the aggregate.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-09-02014 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL



ADMINISTRATION FOR CHILDREN AND
 FAMILIES: OFFICE OF COMMUNITY
  SERVICES–INTERNAL CONTROL
   REVIEW OF THE PROCESS FOR
AWARDING AMERICAN RECOVERY AND
    REINVESTMENT ACT FUNDS




                       Daniel R. Levinson
                        Inspector General

                          March 2010
                         A-02-09-02014
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Office of Community Services

The Community Services Block Grant (CSBG) program provides funds to States, territories, and
tribes to alleviate the causes and conditions of poverty in communities. The Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.

The Recovery Act provides $1 billion to the CSBG program for CSBG community services and
for State-level benefits enrollment coordination activities. The program primarily awards
mandatory and discretionary grants. Mandatory grants, which account for $985 million of the
CSBG program’s Recovery Act distribution, will be awarded to existing grantees on a formula
based on poverty level. Discretionary grants, which account for the remaining $15 million, will


                                                 i
be distributed to new grantees to support the program’s training and technical assistance
activities.

OBJECTIVE

Our objective was to assess the internal controls the Office of Community Services has in place
for awarding grants funded under the Recovery Act and to determine whether the controls have
been suitably designed.

SUMMARY OF RESULTS

The internal controls over the grant award process used to award Recovery Act funds, as
described by Office of Community Services management, are suitably designed to provide
reasonable assurance that the specified internal control objectives would be achieved if the
described internal controls were complied with satisfactorily and applied as designed.

This report is intended to provide a sufficient understanding of the Office of Community
Services’ grant process for awarding Recovery Act funds to grantees as it pertains to internal
control objectives in the following internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              Office of Community Services .......................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
               Objective .........................................................................................................2
               Scope...............................................................................................................2
               Methodology ...................................................................................................3

RESULTS OF REVIEW ......................................................................................................3

          AUTHORIZATION AND APPROVAL....................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy......4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used to Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy......................................................................4
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...............................................................4
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy..........................5
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place ....................5

          ACCURACY, COMPLETENESS AND VALIDITY................................................5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an
                Economical and Efficient Manner ...............................................................5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Process and Approve Grant
                Applications and Related Transactions Are Efficient..................................5




                                                                    iii
          Internal Control Objective 3: Internal Controls Provide Reasonable
            Assurance That the Agency Has Mechanisms in Place to Timely
            Award Grant and Contract Funds ................................................................6
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Only Those Grant Requests That Meet the Eligibility
            Requirements Are Approved .......................................................................6
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Are Periodically Substantiated
            and Evaluated...............................................................................................6

PHYSICAL SAFEGUARDS AND SECURITY........................................................7
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted
       Only in Accordance With Policy .................................................................7

ERROR HANDLING .................................................................................................7
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Administration of Children and Families Accurately and
    Promptly Classifies, Summarizes,
      and Reports Adjustments to Grant Application Information and
      Records ........................................................................................................7

SEGREGATION OF DUTIES ...................................................................................7
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual to Both Cause and
       Conceal Errors Are Reduced .......................................................................7




                                                         iv
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation's infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health & Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

          Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

          Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

          Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

          Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

          Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Office of Community Services

The Community Services Block Grant (CSBG) program provides funds to States, territories, and
tribes to alleviate the causes and conditions of poverty in communities. The Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
On an annual or biannual basis, States, territories, and tribes submit applications (State plans) for
CSBG funds to the Office of Community Services that include: (1) a statement of goals and

1
    Accessed at http://www.hhs.gov/recovery/reports/index.html on October 29, 2009.


                                                          1
objectives, (2) information on the specific types of activities to be supported, (3) areas and
categories of individuals to be served, and (4) the criteria and method used for distributing funds
to local agencies. 2

The Recovery Act provided $1 billion to the CSBG program for CSBG community services and
for State-level benefits enrollment coordination activities. The program primarily awards
mandatory 3 and discretionary 4 grants. Mandatory grants, which account for $985 million of the
CSBG program’s Recovery Act distribution, will be awarded to existing grantees on a formula
based on poverty level. Discretionary grants, which account for the remaining $15 million, will
be distributed to new grantees to support the program’s training and technical assistance
activities.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls the Office of Community Services has in place
for awarding grants funded under the Recovery Act and to determine whether the controls have
been suitably designed.

Scope

We assessed the Office of Community Services’ internal controls over the grant award process
used to award Recovery Act funds to grantees for the reduction of poverty, the revitalization of
low-income communities, and the empowerment of low-income families and individuals in rural
and urban areas to become fully self-sufficient. Our assessment was limited to determining
whether existing internal controls adequately achieved the internal control objectives for:
(1) authorization; (2) accuracy, completeness, and validity; (3) physical safeguards and security;
(4) error handling; and (5) segregation of duties.

We performed fieldwork at ACF’s offices in Washington, D.C., from May through June, 2009.




2
 The CSBG program was authorized by section 680(a) (2) of the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998 as amended, P. L. 105-285 (the CSBG Act), to provide funds to
alleviate the causes and conditions of poverty in communities. The CSBG funds a State-administered network of
more than 1,100 local agencies that create, coordinate, and deliver programs and services to low-income Americans.
3
 Mandatory grants are initiated when Congress passes a law providing funds for a particular group (e.g., States,
territories, tribes, or other eligible jurisdictions). The statute specifies the eligibility requirements for grant
recipients. There is no competitive process for obtaining mandatory grants. There are three types of mandatory
grants: (i) block, (ii) formula, and (iii) entitlement grants.
4
 Discretionary grant programs are those, which permit the awarding agency, the Office of Community Services,
according to specific authorizing legislation, to exercise judgment in selecting the applicant, through a competitive
grant process.



                                                           2
Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of the Office of Community Services’ internal control environment, we:

      reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
       by the Office of Management and Budget, that the Office of Community Services must
       follow for awarding grants;

      reviewed the Office of Community Services’ organizational structure, including
       segregations of functional responsibilities, policy statements, operating manuals, and
       personnel policies;

      interviewed ACF management as well as operations, administrative and other personnel
       responsible for developing, assuring adherence to, and applying internal controls; and

      reviewed the grant award process for three grants funded with Recovery Act funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The internal controls over the grant award process used to award Recovery Act funds, as
described by Office of Community Services management, are suitably designed to provide
reasonable assurance that the specified internal control objectives would be achieved if the
described internal controls were complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of the Office of Community Services’ grant
process for awarding Recovery Act funds to grantees as it pertains to internal control objectives
in the following internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;


                                                3
      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

      ACF and HHS, Office of General Counsel management approve eligibility requirements
       used in evaluating grant eligibility.

      ACF and Office of General Counsel management review and approve the SF-424,
       Application for Federal Assistance prior to their being made available to the non-profit
       organizations and other State entities that are eligible to apply for discretionary funding.

      ACF management authorizes specific personnel to approve grant applications.
       Management designates which personnel can review and approve grant applications and
       provides training for these employees prior to the beginning of the grant cycle.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used to Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      OMB implementation guidance for the Recovery Act requires Federal agencies to
       provide information on the funding notifications made for all award types on
       http://www.recovery.gov with a link to the agency’s Web site.

      Before any document is posted on ACF’s Web site, it must be approved by several
       offices.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      The Office of Community Services’ grant application processing procedures are defined
       and communicated in approved formal procedures manuals.

      The Office of Community Services produces grants cycle memos, program instructions,
       and program guidance to grantees.




                                                 4
      The Office of Community Services management approves all changes to program
       procedures.

      ACF’s Office of Grants Management conducts internal audits relating to grants through
       the ACF’s Office of Financial Services, Financial Integrity Division.

      Personnel authorized to approve grant applications are required to complete four levels of
       coursework to become certified as grants officers.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

      Office of Community Services grantees are required to meet the standards and
       requirements for financial management systems set forth or referenced in 45 CFR §§
       74.21 or 92.20, as applicable. Requirements for grantees’ financial and administrative
       systems are included in the ACF Grants Policy Statement and posted on the Grants
       Administration, Tracking & Evaluation System (GATES) as a resource to grants
       management staff.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

      Upon approval of a State plan, ACF issues a Notice of Grant Award to the grantee. In
       addition, the grantee is also provided with a copy of the terms and conditions of the grant.
       This document mandates and specifies the manner in which funds are to be used and the
       manner in which the grantee is to conduct business.

ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

      The Office of Community Services requires that individuals involved in the grant award
       process be sufficiently qualified and receive adequate training.

      The ACF uses a predefined template system to ensure that all program announcements
       follow OMB standards as well as all HHS and ACF policies.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used to Process and Approve Grant Applications and Related Transactions
Are Efficient

      Grant applicants may submit either the electronic or the hard copy version of the SF-424,
       Application for Federal Assistance. ACF uses several systems to track and fund grants,



                                                5
Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place to Timely Award Grant and Contract Funds

      The Office of Community Services issued on April 10, 2009 Information Memorandum
       109 to States and territories and Information Memorandum 110 to tribes in which it
       detailed the deadlines and effective dates for fiscal year 2009 State plans. Pursuant to the
       information memoranda, States, territories, and tribes must have submitted their State
       plans to the Office of Community Services by May 29, 2009. Upon approval by the
       Office of Community Services, State plans became effective October 1, 2009.

      The Office of Community Services limited CSBG funds distributed as a result of the
       Recovery Act to existing grantees previously approved for funding under fiscal year 2009
       appropriations and to new grantees on a competitive basis to support CSBG training and
       technical assistance activities.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Request That Meet Eligibility Requirements Are Approved

      ACF provides guidance to personnel involved in reviewing State plans at the beginning
       of every grant cycle. Only applications that are fully complete and contain the necessary
       detail are approved for funding.

      Grant applications are required to be resubmitted on a biennial basis. Each agency
       planning to substantially change its program is required to submit an amendment to its
       State plan for approval.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

      Grantees expending more than $500,000 in a fiscal year are required to obtain audits of
       their organization’s operations annually from independent public accountants in
       accordance with OMB Circular A-133, Audits of States, Local Governments, and Non-
       Profit Organizations, and 45 CFR § 74.26.

      Grants officers and Office of Community Services program officials use reports,
       correspondence from grantees, audit reports, site visits, and other available information to
       monitor costs and performance results, identify potential problems, and identify areas
       where technical assistance or enforcement action may be necessary.




                                                6
PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

      Physical access to ACF facilities is electronically monitored. Access to the various
       computer systems used to track and manage grants are password protected. Supervisors
       determine the needs of personnel and restrict access to the various levels of information
       by use of permissions. External users do not have access to GATES.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Administration for Children and Families Accurately and Promptly Classifies,
Summarizes, and Reports Adjustments to Grant Application Information and Records

      Multiple levels of ACF personnel approve and allocate grants–a process intended to
       reduce the chance of error.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual to Both Cause and Conceal Errors Are Reduced

      The Office of Community Services’ process for reviewing, approving, allocating, and
       funding grants spans several offices and requires approval from multiple management
       level personnel.

      Grants officers serve as the reception and distribution point for prior approval requests,
       progress reports, and other reports required by the terms and conditions of the Notice of
       Grant Award.

      Program officials are required to evaluate State Plan submissions while grants officers
       determine compliance with policy, regulations, and guidelines.




                                                7
